BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna Wolf, hereby certify that 1 unbound copy
and 40 bound copies of the foregoing Brief of Amicus
Curiae The Buckeye Institute Supporting Petitioners
in 20-107, Cedar Point Nursery, et al. v. Victoria
Hassid, et al., was sent via Next Day Service to the
U.S. Supreme Court, and via Next Day and e-mail
service to the following parties listed below, this 7th
day of January, 2021:
Joshua Paul Thompson
Wencong Fa
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
(916) 419-7111
jthompson@pacificlegal.org
wfa@p acificle gal. org

Counsel for Petitioners
Joshua Patashnik
California Department of Justice
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
(415) 510-3896
josh.patashnik@doj.ca.gov

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Thomas R. McCarthy
Counsel of Record
Tiffany H. Bates
Antonin Scalia Law School
Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
tom@consovoymccarthy.com
Robert Alt
The Buckeye Institute
88 East Broad Street, Suite 1300
Columbus, Ohio 43215
(614) 224-4422

Counsel for Amicus Curiae

All parties required to be served have been
served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 7, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

c.../~ 1,

c) ?;J d I

d,j~ v:i . 0.~
Notary Public

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expire'.
;".ebrl'?ry 14, 20;23

